   DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General



       Survey of the Science and Technology
                     Directorate




Office of Inspections, Evaluations & Special Reviews

 OIG-04-24                       March 2004
                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed on the basis of the best knowledge available
to the OIG, and have been discussed in draft with those responsible for implementation. It is
my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.




Clark Kent Ervin
Inspector General
                                                                                                                        Contents


  Introduction.................................................................................................................................... 3

  Results in Brief .............................................................................................................................. 4

  Background .................................................................................................................................... 5

  Purpose, Scope, and Methodology.................................................................................................. 5

  The Budgetary Programs and Organizational Elements of the Science and Technology
  Directorate..................................................................................................................................... 6

  Management’s Response................................................................................................................19

  Issues For Future OIG Reviews................................................................................................... 19

Appendices

  Appendix A:                 Summary of S&T Statutory Functions ........................................................... 25
  Appendix B:                 Budget and FTE Statistics for Fiscal Year 2003 and 2004…. .........................26
  Appendix C:                 RDT&E Program Nomenclature......................................................................27
  Appendix D:                 S&T Portfolios ................................................................................................ 28
  Appendix E:                 Major Contributors To This Report ................................................................ 35
  Appendix F:                 Report Distribution ......................................................................................... 36


Abbreviations

  BAA                         Broad Agency Announcement
  CIP-MSAP                    Critical Infrastructure Protection-Modeling, Simulation, and Analysis Program
  COS                         Chief of Staff
  DARPA                       Defense Advanced Research Projects Agency
  DHS                         Department of Homeland Security
  DoD                         Department of Defense
  DoE                         Department of Energy
  EML                         Environmental Measurements Laboratory
  FAR                         Federal Acquisition Regulation



                                             Survey of the S&T Directorate                                                                      Page 1
Contents

   FTE         Full Time Equivalent
   FY          Fiscal Year
   HSA         Homeland Security Act of 2002
   HSI         Homeland Security Institute
   HS-Center   Homeland Security-Center for Excellence
   HSARPA      Homeland Security Advanced Research Projects Agency
   HSSTAC      Homeland Security Science and Technology Advisory Committee
   IAIP        Information Analysis and Infrastructure Protection
   IND         Improvised Nuclear Device
   IPT         Integrated Product Team
   IRCM        InfraRed CounterMeasure
   IT          Information Technology
   MANPADS     Man-Portable Air Defense Systems
   NSF         National Science Foundation
   ORD         Office of Research and Development
   OIG         Office of Inspector General
   OTA         Other Transactions Authority
   OWMDO-IM    Office of Weapons of Mass Destruction Operations-Incident Management
   PIADC       Plum Island Animal Disease Center
   PPB         Office of Plans, Programs, and Budget
   RDD         Radiological Dispersal Device
   RDT&E       Research, Development, Test and Evaluation
   S&T         Science and Technology Directorate
   SED         Office of Systems Engineering and Development
   START       Scientific and Technical Advisory and Response Teams
   USC         University of Southern California
   USDA        Department of Agriculture
   TSA         Transportation Security Administration
   TSWG        Technical Support Working Group
   TVTA        Threat and Vulnerability, Testing and Assessment
   WMD         Weapons of Mass Destruction




Page 2                                Survey of the S&T Directorate
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                   The Science and Technology Directorate (S&T) was created to support the
                   strategic mission of the Department of Homeland Security (DHS) by conducting,
                   stimulating, and enabling research; and developing, testing, evaluating, and
                   transferring homeland security capabilities to federal, state, and local operational
                   end-users. The S&T will:

                      •   Partner with operational end-users to identify requirements, and develop
                          capabilities to counter threats and enhance mission operations;
                      •   Engage government, academic, and private sectors in innovative
                          research, development, rapid prototyping, and systems engineering and
                          development;
                      •   Provide a rapid, efficient, and disciplined process for systems engineering
                          and development;
                      •   Provide DHS with an enduring research and development complex
                          dedicated to homeland security.

                   The S&T is unique in that no other federal organization has the statutory mandate
                   to merge these responsibilities under one organizational framework.

                   We conducted this survey to further our knowledge of the S&T. Particularly
                   important were the following:

                      •   The methodology for transferring and integrating the functions and
                          resources from legacy agencies responsible for conducting research and
                          development into the S&T;
                      •   How the S&T offices and divisions are working or intend to work with
                          other DHS entities and non-DHS entities to protect critical infrastructure;
                          and
                      •   The S&T’s ability to communicate information with entities within DHS
                          and other federal, state, local, and private sector partners.




                             Survey of the S&T Directorate                                       Page 3
                            Additionally, we endeavored to determine the obstacles the S&T faces in
                            “standing-up” the organization and areas or issues that could result in future
                            Office of Inspector General (OIG) reviews.



Results in Brief
                            On March 1, 2003, portions of programs, activities, and laboratories from three
                            agencies – Department of Defense (DoD), Department of Energy (DoE) and
                            Department of Agriculture (USDA) – merged to become the S&T. The S&T is
                            known as the “technology arm” of the DHS. Some aspects of this merger were
                            made easier because S&T was able to borrow some business processes from
                            DoD’s Defense Advanced Research Projects Agency (DARPA), which has a
                            federal research and development mission. In addition, S&T hired key personnel
                            who had prior work experience with DARPA. However, the merger was not
                            completely without its challenges. The S&T has had to contend with a set of
                            administrative and logistical challenges similar to those encountered by other
                            startup ventures, including: (1) the inability to hire personnel quickly who can
                            work in a secure environment, (2) the lack of centralized space, and (3) the lack
                            of consistent Information Technology (IT) systems and procurement support.
                            These difficulties are partially the result of being dependent on services provided
                            by other federal agencies and other DHS directorates that are themselves not fully
                            staffed.

                            We identified several areas that may warrant future evaluation, including: (1) the
                            procedures for selecting persons to participate in both the Homeland Security
                            Centers of Excellence program and the Scholars and Fellows program; (2) the
                            level of coordination between S&T and other DHS directorates to formulate an
                            integrated strategic plan and reduce the possibility for duplication when selecting
                            new technologies for further research and development; (3) the governing
                            doctrine between the S&T and the laboratories that it oversees, to make sure that
                            responsibilities for facilities management and security are clearly defined; (4)
                            the procedures and controls in place for managing Other Transactions Authority
                            (OTA),1 and (5) the ability of friendly foreign scientists and students to contribute
                            to S&T programs.




1
  Other Transactions Authority exempts the S&T from having to follow the procurement rules found in various federal procurement
regulations and is intended to greatly shorten the time it takes to procure goods and services.


Page 4                                                       Survey of the S&T Directorate
Background
                             In response to the recognized need for a coordinated, national approach2 to protect
                             the homeland against potential terrorist attacks, the United States Congress
                             enacted the Homeland Security Act of 2002 (HSA), resulting in the creation of the
                             DHS. The primary strategic objectives of the DHS are:

                                  •    To prevent terrorist attacks within the homeland;
                                  •    To reduce the vulnerability of the homeland to terrorism; and
                                  •    To minimize the damage and assist in the recovery from terrorist acts that
                                       occur within the homeland.

                             To sustain these strategic objectives, the S&T was created as the primary research
                             and development arm of the DHS. The S&T organizes scientific, engineering, and
                             technological resources of the United States to facilitate the rapid identification,
                             development, and implementation of new, cost effective technologies in support
                             of the homeland security mission. The S&T has three primary activity areas:
                             (1) intramural, (2) extramural, and (3) educational. Intramural activities involve
                             in-house research and development consisting of a group of scientists and
                             engineers focusing on homeland security issues. Extramural activities involve
                             soliciting innovative ideas from industry and academia. Educational activities
                             involve providing scholarships and fellowships to those who wish to enter
                             into careers and perform research that are important to the homeland security
                             research and development enterprise. S&T fulfills its mission through its four
                             major components, namely, the Office of Plans, Programs, and Budget (PPB); the
                             Homeland Security Advanced Research Projects Agency (HSARPA); the Office
                             of Research and Development (ORD); and the Office of Systems Engineering and
                             Development (SED).


Purpose, Scope, and Methodology
                             The objective of our survey was twofold. First, we set out to gain a basic
                             understanding of the S&T. This included learning the missions of the S&T
                             offices, defining the operational relationships between its offices and divisions,

2
  Before the DHS was created in November 2002, protecting the homeland was primarily a federal responsibility and was mainly
coordinated through the military, the intelligence agencies, and Department of State. Since the September 11, 2001, terrorist attack,
this has become a national rather than a federal responsibility, because the federal government alone cannot protect the homeland. This
responsibility has now become a national responsibility, requiring close coordination among federal, state, and local governments and the
private sector.



                                           Survey of the S&T Directorate                                                           Page 5
                diagramming S&T’s organization and business processes, and identifying the
                obstacles impeding S&T’s ability to become fully operational. Second, our
                survey provided us an opportunity to identify issues suited for future OIG
                inspections or audits. We reviewed and analyzed documentation pertinent to the
                DHS and the S&T directorate including program guidance, policy memorandums,
                briefing packages, meeting notes, Internet websites, various news articles, and the
                HSA.

                We interviewed the S&T Under Secretary, the Chief of Staff, and several key S&T
                officials.

                We conducted our fieldwork from December 2003 to January 2004. This survey
                was conducted under the authority of the Inspector General Act of 1978, as
                amended.



The Budgetary Programs and Organizational Elements of the Science
and Technology Directorate
                Guided by the requirements of the HSA, S&T is the principal directorate within
                DHS charged with leading the federal government’s civilian efforts in the research
                and development of technologies in support of homeland security. Included
                among these technologies are those geared toward: (1) preventing the importation
                of chemical, biological, radiological, nuclear, and related weapons and materials;
                and (2) detecting, preventing, protecting against, and responding to terrorist
                attacks. In addition to its research and development function, S&T is also charged
                with supporting the Under Secretary for Information Analysis and Infrastructure
                Protection by assessing and testing homeland security vulnerabilities and possible
                threats (Appendix A). S&T accomplishes this mission through an approved fiscal
                year (FY) 2004 personnel complement of 140 Full-Time Equivalents (FTE) that
                manages its intramural and extramural research and development and educational
                programs through an extensive network of contacts at other federal agencies,
                public and non-profit laboratories, universities, and the private sector.

         The Budgetary Programs of S&T
                S&T budget statistics are reported in Appendix B. The S&T budget was $553
                million for March through September in FY 2003 and $918 million in FY 2004.
                Of the $918 million in funding approved for FY04, about $874 million, or 95.2



Page 6                                   Survey of the S&T Directorate
                              percent, will be spent on research and development programs, while the rest will
                              cover personnel expenses. The FY 2004 budget request is designed to support
                              homeland security by helping the nation maintain its technical superiority in
                              science and technology. As new technologies are developed with this funding,
                              S&T intends to share them with other federal, state, local and private sector
                              partners. Highlights of S&T’s FY 2004 budget include:

                                   •    $198.5 million to develop and implement integrated systems to decrease
                                        the probability and effects of a biological attack on this country’s civilian
                                        population and agricultural system.

                                   •    $127 million to develop radiological and nuclear countermeasures that
                                        prevent the importation, transportation, and subsequent detonation of a
                                        radiological or nuclear device within our borders.

                                   •    $93 million to develop technologies and systems to enhance DHS’s ability
                                        to analyze threat information, assess and test vulnerability assessments for
                                        infrastructure protection, detect and mitigate sophisticated cyber threats,
                                        enhance the interoperability of new technologies, and determine hostile
                                        intent.

                                   •    $88 million for the construction of a National Biodefense Analysis and
                                        Countermeasures Center, which is to be the principal DHS component of
                                        the Fort Detrick Interagency Biodefense Campus in Maryland.

                                   •    $75 million for the Rapid Prototyping/Technical Support Working Group
                                        (TSWG)3 to provide a competitive method to evaluate technologies during
                                        their initial phases of development.

                                   •    $70 million to develop academic programs that support students by
                                        building learning and research environments in key areas such as
                                        bioforensics, cybersecurity, disaster modeling, and psychological and
                                        behavioral analysis.




3
  TSWG is the U.S. national forum that identifies, prioritizes, and coordinates interagency (Departments of State, Defense, Energy,
Homeland Security, and Federal Bureau of Investigation) and international research and development requirements for combating
terrorism.


                                           Survey of the S&T Directorate                                                              Page 7
         The Organizational Elements of S&T
                The S&T inherited programs, activities, and laboratories from three legacy
                agencies. Most came from DoE, while the others came from the DoD and USDA.
                The following list identifies the programs, activities, and laboratories that were
                merged to form the S&T:

                   •   The chemical and biological national security and supporting programs
                       and activities of the nonproliferation and verification research and
                       development program (DoE)
                   •   The life sciences activities related to microbial pathogens of the biological
                       and environmental research program (DoE)
                   •   The nuclear smuggling programs and activities within the proliferation
                       detection program of the nonproliferation and verification research and
                       development program (DoE)
                   •   The nuclear assessment program and activities of the assessment,
                       detection, and cooperation program of the international materials
                       protection and cooperation program (DoE)
                   •   The advanced scientific computing research program and activities at
                       Lawrence Livermore National Laboratory (DoE)
                   •   The Environmental Measurements Laboratory (DoE)
                   •   The National Bio-Weapons Defense Analysis Center (DoD)
                   •   Plum Island Animal Disease Center (USDA)

                Merging these programs, activities, and laboratories has been an ongoing process
                and has created challenges similar to those encountered by other startups.
                Fortunately, not all of S&T is without precedent. Less than ten percent of S&T’s
                mission involves conducting non-requirements driven research and development
                of new technologies. To provide us with an example of what non-requirements
                driven research and development means, an S&T executive provided the
                hypothetical example of the development of a mass bio-button network of
                sensors. In such a network, small bio-buttons would be passed out to millions
                of commuters. During their return trip home, people who received buttons
                during their commute into work would toss the bio-buttons into receptacles to
                be analyzed later as they exited their commuting destination. The purpose of
                the bio-buttons would be to sense where and when the button was exposed to
                a potential biological contagion. With thousands of people wearing these so-
                called bio-buttons, such a network of sensors could be useful in the early warning
                and detection of a massive biological attack on the nation. Currently, such a
                technology does not exist, nor are there any current requirements or concept of


Page 8                                   Survey of the S&T Directorate
operations for such a technology – the kind of technology that is so cutting edge
that it will “knock your socks off.” The execution arm of S&T responsible for
conducting this kind of research is the Homeland Security Advanced Research
Projects Agency (HSARPA). HSARPA is modeled after a similar agency within
the DoD known as the DARPA.

The S&T has recruited several key personnel from DARPA. These personnel
have been able to draw from their overall knowledge of the DoD’s Research,
Development, Test and Evaluation (RDT&E) program to assist the S&T in
becoming fully operational. As part of this overall knowledge, these personnel
continued to use RDT&E program nomenclature (Appendix C):

   •   Basic Research 6.1
   •   Applied Research 6.2
   •   Advanced Technology Development 6.3
   •   Demonstration and Validation 6.4
   •   Engineering and Manufacturing Development 6.5
   •   Management Support 6.6
   •   Operational Systems Development 6.7

This RDT&E program nomenclature can be seen in the overall organizational
structure of the S&T. Recruiting DARPA personnel and incorporating RDT&E
program nomenclature into its overall organizational structure and into its
business model has helped make the startup phase for S&T somewhat easier.
Despite being able to borrow some RDT&E program nomenclature and business
methodologies, it is important to reiterate that the merging process has not been
without challenges. The S&T has had to contend with a myriad of administrative
and logistical issues that include: (1) the inability to hire personnel quickly who
can work in a secure environment, (2) the limited space in its central office, and
(3) the lack of consistent IT systems and procurement support. These difficulties
are partially the result of S&T’s dependence for these services on other DHS
directorates that are in themselves not fully staffed and other federal agencies.
One senior executive with significant private sector experience characterized the
S&T as a “startup within a merger.”

Like DARPA, the S&T was endowed by Congress with Other Transactions
Authority (OTA). The statutory OTA plays an important role in S&T’s ability
to quickly implement new technologies in the field. OTA does this by providing
a legal basis for exempting S&T from nearly all federal procurement rules and
regulations. We were told that Congress’ intent was to substantially reduce the



          Survey of the S&T Directorate                                      Page 9
                      normal procurement cycle for complex systems and advanced technologies, which
                      under the existing federal procurement process can take as long as three to five
                      years.

                      Presented below is the most recent organizational chart supplied by the S&T,
                      dated October 1, 2003, with a graphical presentation of RDT&E program
                      nomenclature integrated into the S&T organizational chart and business model as
                      depicted by the OIG:

                                  Chart 1 – The Science and Technology Directorate
                                            Business Processes of the
                                        Science and Technology Directorate


                                                         Office of the Under Secretary


                                                                                                  Chief of Staff




                                                                             Homeland Security
                  Programs, Plans & Budgets       Office of Research                                               Systems Engineering
                                                                         Advanced Research Projects
                                                   & Development                                                     & Development
                                                                                  Agency

                                                      Blue Path
                   Portfolio Managers within      Goes to ORD when
                   PPB prioritize the incoming    one of the National
                   concepts of operations and     labs can provide the          Green Path
                   operational needs. Then        best solution.           Goes to HSARPA when
                   they decide which S&T                                   the private sector can
                   execution arm can produce                               provide the best solution.                  Red Path
                   the best solution and get it
                   implemented in the field as                                                                      Goes to SED when
                   quickly as possible.                                                                             the technology
                                                                                                                    requires full scale
                                                                                                                    development,
                                                                                                                    manufacture, and
                                                                                                                    deployment.

      DoD RDT&E activity                               6.1                    6.2 and 6.3                          6.4 and 6.5



                      One of the intended benefits of S&T’s business model is its relative simplicity and
                      ability to assign projects based on criticality and national priorities to the best-
                      suited S&T execution arm for further research and development. As outlined in
                      the above chart, portfolio managers within the PPB first vet incoming concepts
                      of operations and operational needs that have applications for homeland security.
                      The portfolio concept and the personnel that manage them are discussed later in
                      this survey. Portfolio managers in conjunction with an Integrated Project Team
                      (IPT) examine incoming concepts of operations and operational needs against



Page 10                                                       Survey of the S&T Directorate
short-term and long-term goals in accordance with national priorities. The IPT
concept is discussed in more detail later in this survey. After determining where
these incoming concepts of operations and operational needs fit within national
priorities, the portfolio managers submit recommendations to senior S&T
management as to which technologies should be selected for further research and
development. Once final decisions on which technologies to further research
and develop are made, portfolio managers continue to work closely with end-
users to refine the technology’s concept of operation or to better understand the
operational needs of the end-user. After the technology’s concept of operation
or the end-user’s operational needs have been fully determined and prioritized,
the portfolio manager, in conjunction with the rest of the IPT, decide which
S&T execution arm can provide the best solution for getting the technology
implemented in the field as quickly as possible. This decision is primarily based
on the maturity of the selected technology, i.e., how close the technology is to
production. If the technology requires extensive research and development
before it can go into production, then it is assigned to the Office of Research
& Development (ORD). If the technology requires minimal research and
development and can be brought quickly to proof-of-concept, then it is assigned
to HSARPA. If the technology is mature enough to go immediately into a pre-
production demonstration or a pilot program, or if it is a production phase solution
ready for validation and field test, then it is assigned to the Systems Engineering
& Development (SED) execution arm of the S&T.

S&T’s organizational structure and business model, coupled with having OTA,
supports the rapid identification, development, and implementation of new
technologies that are a high priority for implementation in the field. This can be
seen in how S&T chose to address the immediate potential threat that shoulder-
fired missiles, known as MANPADS, i.e., Man-Portable Air Defense Systems,
pose to U.S. commercial aircraft. Congress approved $60 million for the counter
MANPADS program in FY 2004, with approximately an additional $61 million
likely to be approved for FY 2005. Initially, the counter MANPADS program
was a portfolio in the PPB. However, with the prospect of new funding, S&T
senior executives, in consultation with the counter MANPADS portfolio manager,
decided to turn the counter MANPADS portfolio into a full-fledged program and
moved it into the SED to be administered.

This organizational and OTA procurement flexibility enabled the S&T to
announce contract awards to three separate companies for the first phase of the
counter MANPADS initiative approximately three months after soliciting white
papers from prospective contractors. According to the manager of the counter



          Survey of the S&T Directorate                                     Page 11
                  MANPADS program, having OTA substantially shortened the time it took to
                  reduce the 24 contractors that submitted white papers to a more exclusive group
                  of five contractors that were allowed to continue with the bidding process. These
                  five contractors were asked to submit more detailed proposals on how they would
                  actually counter the threat that MANPADS pose to commercial aircraft. Rather
                  than have them submit lengthy technical and cost proposals, OTA allowed S&T
                  to require the five remaining contractors to present their proposals during a
                  tight, five-hour oral presentation. All of these presentations were scheduled and
                  conducted within one week and within several hours after the last presentation the
                  three winning contractors were selected.

          The Office of the Under Secretary
                  The Under Secretary for S&T reports directly to the Secretary of DHS and
                  is responsible for carrying out the S&T mission as prescribed by the HSA.
                  The Under Secretary is responsible for leading the S&T into functioning
                  as a technological clearinghouse by encouraging and supporting research,
                  development, testing, evaluation and timely transmission of new technologies to
                  federal, state, and local operational end-users in the field to make the homeland
                  more secure. In addition to leading the day-to-day operations of the S&T, the
                  HSA states that the Under Secretary is responsible for administering: (1) the
                  Homeland Security Science and Technology Advisory Committee (HSSTAC), and
                  (2) the Homeland Security Institute (HSI).

                  As the sponsor of the HSSTAC, the Under Secretary is responsible for appointing
                  all 20 members of the committee. He appointed the committee members in
                  February 2004. In addition to scientists, engineers, and medical researchers,
                  committee membership includes emergency first responders, representatives from
                  organizations or associations of emergency first responders, and representatives
                  from citizen groups, including those representing economically disadvantaged
                  communities. All members will serve in a pro-bono capacity. The HSSTAC is
                  designed to provide the Under Secretary with a direct end-user perspective and to
                  make recommendations with respect to the utility of activities conducted by the
                  S&T, as well as identify research areas of potential future importance. By statute,
                  the HSSTAC will meet at least four times a year. The HSSTAC’s first meeting
                  was scheduled for February 26, 2004.

                  The HSA also provides for the establishment of the HSI and requires it to be
                  administered as a separate and distinct entity from the S&T. The HSI is to
                  function as a federally funded research and development center. The law also


Page 12                                    Survey of the S&T Directorate
gives the Under Secretary considerable discretion in assigning responsibilities
to the HSI. The program manager in charge of establishing the HSI on behalf
of the Under Secretary described it as being “an operations-driven think-tank
that will provide studies and analyses for the DHS similar in scope to those that
organizations such as the Rand Corporation, Institute for Defense Analyses,
Center for Naval Analyses, to name a few, have provided the DoD for many
years.” The program manager expects the HSI to have a personnel complement
of 150 FTE and will provide the Under Secretary with independent analysis on
such topics as vulnerabilities of the nation’s critical infrastructures, economic and
policy analyses of approaches to enhance security, metrics designs, and methods
to evaluate federal government security programs.

There are two immediate organizational units that provide direct support for
the Under Secretary: the Chief of Staff and the Office of Weapons of Mass
Destruction Operations and Incident Management (OWMDO-IM). The Chief of
Staff is the Under Secretary’s principal advisor for daily administrative matters
such as financial and strategic planning, facilities, and acquisition support that
are essential to ensure that the S&T fulfills its mission. The Chief of Staff serves
also as the principal S&T liaison to other DHS elements like the Management
Directorate, Legislative Affairs, Public Affairs, General Counsel, and the
Inspector General. Additionally, the Chief of Staff is responsible for assuring the
dissemination and implementation of policies and directives throughout the S&T.

The OWMDO-IM is staffed with response experts who provide architecture
for the Scientific and Technical Advisory and Response Teams (START). The
OWMDO-IM is primarily a “virtual” entity, but can insert START teams at
or near the incident site for analysis and advisory support to state and local
governments, or to Disaster Field Offices. START is staffed with highly technical
scientists from other S&T offices, and serving in the START is considered to
be a collateral duty. During crisis and near-crisis events, personnel from the
OWMDO-IM are assigned to work in the Homeland Security Operations Center.
Part of the process is making recommendations to the Director of the Interagency
Incident Management Group during crisis operations. They are expected to
ensure a “scientist-to-responder” link, by translating complex scientific and
technical information into terms that are easier to understand for non-technical
audiences on the ground. In addition to first responders, the work conducted
by OWMDO-IM personnel assists executive management in decision-making.
To illustrate, personnel from OWMDO-IM are able to direct various national




          Survey of the S&T Directorate                                       Page 13
                             laboratories to conduct “plume modeling exercises”4 for possible scenarios
                             involving the dispersion of chemical, biological, or radiological contaminants
                             near certain potential terrorist targets. Upon receiving the results, the OWMDO-
                             IM can report the results within one hour in non-technical terms to executive
                             management. Executives are then better able to make decisions regarding
                             the type of medical remedies and equipment that first responders need when
                             responding to any hypothetical catastrophic situation.



              Office of Programs, Plans, & Budget
                             The PPB plays a central role in S&T’s business model. The Portfolio Managers
                             in PPB lead the interaction with S&T’s customers. They also play an important
                             role in prioritizing and selecting which incoming concepts of operations and
                             operational needs are ultimately chosen for further research and development.
                             One senior executive described PPB as being a type of “conduit” for customers to
                             communicate their technical and operational needs to S&T.

                             The PPB interacts with customers through portfolio managers. An S&T portfolio
                             can be defined as a compilation of subject material under one type of threat that
                             has implications for existing or future research and development initiatives. The
                             PPB employs 16 portfolio managers who oversee the same number of portfolios,
                             with some having multiple sub-portfolios (Appendix D). In addition to being on
                             the front-line of S&T customer interaction, portfolio managers are responsible for
                             setting timelines and priorities to satisfy customer needs. In addition to portfolio
                             managers, an IPT is made up of program managers from similar programs within
                             the other three S&T operational elements, namely ORD, HSARPA, and SED.
                             The role of portfolio managers is to provide the IPT with strategic guidance, while
                             program managers provide the IPT with an assessment of the technical capability
                             of their own individual S&T element and the public and private sectors to actually
                             bring a new technology to production and eventually get it implemented in the
                             field. By understanding the technical capability of the three S&T execution
                             arms, portfolio managers can better decide which of them is best suited for
                             beginning the research, development, and production cycle for the selected new
                             technology. In the MANPADS illustration discussed previously that involved a
                             mature technology that had been used in executive aircraft for years, knowing

4
 When a chemica
of the agent great distances, depending largely on the wind conditions at the time of detonation. Plume modeling can be used to predict
how far the
people the device may have contaminated.


Page 14                                                        Survey of the S&T Directorate
the technical capabilities of the three S&T execution arms assisted the portfolio
managers in making the decision to select the SED as the lead operational element
for administering the counter MANPADS program.

It is through portfolio managers and their leadership positions on IPTs that
the PPB is able to exert a considerable amount of influence on the technology
selection process. In addition to leading IPTs, another avenue for influence
that the PPB has on the selection process comes from its unique relationship
with the Information Analysis and Infrastructure Protection (IAIP) Directorate.
The IAIP is the lead directorate within the DHS for formulating the national
infrastructure protection plan. As part of this responsibility, the IAIP maintains
a Protective Measures Target List that catalogues and prioritizes the nation’s
critical infrastructure and key assets. The PPB has one portfolio and parts of
another dedicated to working on IAIP matters. One senior executive described
these portfolios as “where the S&T and IAIP are joined at the hip.” It is here
where the S&T supports IAIP by researching and developing new tools to
conduct vulnerability and risk assessments. In turn, it is here where the IAIP
communicates to the S&T which critical infrastructure and key assets are
considered Tier I, i.e., the highest priority, requiring the greatest protection, and
Tier II, i.e., lower priority, requiring less protection. In the ideal environment,
the relationship between S&T and IAIP would be such that the IAIP would
be equipped with state-of-the-art modeling and visualization tools capable of
anticipating and mitigating against future terrorist attacks, while the S&T would
be equipped with the terrorist threat picture facing the nation, ensuring that it
focuses its attention on researching and developing new technologies designed
to safeguard Tier I critical infrastructure and key assets, rather than on those
designed to safeguard Tier II critical infrastructure and key assets.

In addition to utilizing the terrorist threat picture formulated by the IAIP, the
PPB also utilizes a type of matrix system when selecting new technologies for
further research and development. Along the horizontal x-axis of the matrix is a
list of traditional portfolios, e.g., Border & Transportation Security, Emergency
Preparedness & Response, Coast Guard, Secret Service, etc. Along the vertical
y-axis of the matrix is a list of technical portfolios, e.g., Chem-Bio, Rad-Nuclear,
Cyber, etc. As portfolio managers receive input from contacts within the technical
and traditional portfolios, they record incoming concepts of operations and
operational needs by populating corresponding cells within the matrix. Concepts
of operations and operational needs that are requested by multiple portfolios in the
matrix system receive a higher priority. Once a particular technology resulting
from a concept of operation or operational need is selected for development, the



          Survey of the S&T Directorate                                        Page 15
                 portfolio manager in conjunction with the rest of the IPT decide which of the
                 three S&T execution arms is best suited for beginning the research, development,
                 and production cycle for the selected new technology.



          Office of Research and Development
                 The Office of Research and Development (ORD) reports to the Under Secretary
                 for S&T. Sections 308(c) and 309 of the Homeland Security Act prescribe the
                 R&D mission. Generally, this is known as the intramural activity of the S&T.
                 The intramural activities are all S&T requirements that the senior S&T leaders
                 determine cannot be fulfilled by the private sector and must be carried out by
                 national or university laboratories. Generally, the R&D receives projects that
                 have needs for technologies that are not mature and need extensive research
                 and development. ORD’s duties include research, development, testing, and
                 evaluation; university and fellowship programs; and enduring research and
                 development capability dedicated to homeland security.

                 The ORD manages and acts as the steward for the federal and national
                 laboratories that are responsible for providing research and development
                 activities for the protection of the homeland. The S&T has direct stewardship
                 over the Plum Island Animal Disease Center (PIADC) and the Environmental
                 Measurements Laboratory (EML). A reorganization plan required by the HSA
                 mandated that the PIADC be transferred from the Department of Agriculture to
                 the DHS S&T on June 1, 2003. PIADC was used to conduct basic and applied
                 research and diagnostic activities to protect the health of livestock on farms across
                 America from foreign disease agents. Its role is to lead research and development
                 to prevent, respond to, and recover from the intentional introduction of animal
                 diseases.

                 The HSA also mandated that the EML be transferred from the Department of
                 Energy to DHS S&T. The EML mission is to advance and apply the science
                 and technology required for preventing, protecting against, and responding
                 to radiological and nuclear events in the service of homeland and national
                 security. EML is responsible for using its expertise in radiation and radioactivity
                 measurements to improve the science and technology available to the nation’s
                 responders.




Page 16                                    Survey of the S&T Directorate
                            The S&T also works with laboratories that are owned and operated by other
                            federal agencies. These laboratories are5:

                                 •    Lawrence Livermore Laboratory, (DOE)
                                 •    Los Alamos National Laboratory (DOE)
                                 •    Sandia National Laboratory (DOE)
                                 •    Oak Ridge National Laboratory (DOE)
                                 •    Pacific Northwest Laboratory (DOE)
                                 •    United States Secret Service Laboratory (DHS)
                                 •    Transportation Security Laboratory (DHS)

              Homeland Security Advanced Research and Projects Agency
                            The Homeland Security Advanced Research and Projects Agency (HSARPA)
                            reports to the Under Secretary for S&T. HSARPA is the external research and
                            development funding unit of DHS. HSARPA has three primary missions: (1)
                            to interact with the private sector and universities to identify and develop
                            revolutionary technologies that can be used to better secure the homeland, with
                            an emphasis on satisfying the operational needs of customers, (2) fill DHS
                            customers’ operational needs for advanced technology by fostering emerging
                            technologies to a developmental level where they can be demonstrated in a proof-
                            of-concept, i.e., furnish a pragmatic technology, and (3) move technology out of
                            the labs and into the field quickly by rapid prototyping/commercial adaptation
                            of technologies. HSARPA receives operational needs from PPB and provides
                            technology infusion to ongoing SED and other DHS components’ programs, and
                            may transfer large technology developments to SED for full-scale development
                            and deployment.

                            As part of the rapid Prototyping program, HSARPA leverages its relationship with
                            the TSWG. Rapid prototyping is used when a new technology needs to be in the
                            field in less than one year. HSARPA contributed $33 million to TSWG in FY2003
                            and another $30 million in FY2004 to issue a Broad Agency Announcement
                            (BAA) before HSARPA was staffed to do so. The contracts resulting from this
                            BAA are managed by TSWG with coordination with HSARPA.

                            HSARPA conducts its roles in part by awarding procurement contracts, grants,
                            cooperative agreements, or other transactions for research or prototypes to public


5
 We also identified another laboratory within DHS, but not under S&T control. This laboratory was the U.S. Customs Laboratory and
Scientific Service that does testing to determine the origin of agricultural and manufactured products.


                                         Survey of the S&T Directorate                                                      Page 17
                 or private institutions, businesses, federally funded research and development
                 centers and universities.

          Office of Systems Engineering and Development
                 The SED supervises and directs major acquisition programs and related
                 activities. SED receives operational needs from PPB that have a “mature”
                 technology, require little or no research and development, and are ready for a
                 pilot program, pre-production integration and test, or systems development and
                 demonstration. These projects are generally larger and involve more integration
                 and test complexities than those handled by HSARPA. Also, HSARPA may
                 transfer projects to SED when it needs to transition from a small project to a
                 major initiative. SED develops solution-based systems, conducts rapid full-
                 scale development and acceptance testing, and makes transition of cost-effective
                 systems with a view to satisfying customer needs. The adoption of military
                 technologies that are appropriate for homeland defense purposes, for instance, a
                 commercial variant of InfraRed CounterMeasures (IRCM) equipment for use on
                 civil aircraft, is one example of SED’s activities.

                 During its brief tenure, SED has worked on major DHS initiatives, such as
                 the counter MANPAD program, which aims to protect commercial aircraft
                 from human-portable anti-aircraft missiles. SED is also involved with Safety
                 Interoperable Communications Program (SAFECOM) and Biowatch. Established
                 in 2002, SAFECOM is the first umbrella program within the federal government
                 to assist local, tribal, state and federal agencies improve public safety response
                 through efficient interoperable wireless communications.

                 The Biowatch program involves the installation in several metropolitan areas
                 across the country of detection devices to identify airborne pathogens like anthrax
                 in time to hand out life-saving medicines to victims. SED is also assisting in the
                 pilot programs with the Port Authorities of New York and New Jersey to test
                 chemical, biological, radiation, nuclear and explosive detection equipment.

                 Other SED’s responsibilities include preparing the budget, determining the
                 sequence of projects to be completed within the fiscal year, and ensuring they are
                 executed according to law, regulation, and Departmental policies. In addition,
                 SED proposes policies to ensure disciplined and efficient systems engineering and
                 acquisition process for S&T.




Page 18                                   Survey of the S&T Directorate
Management’s Response
                Management generally concurred with the contents of this report. We
                incorporated some changes to the report based on their comments.

Issues for Future OIG Reviews
                As we studied the S&T in order to understand its mission and how its offices
                and divisions operate in the fulfillment of the directorate’s mission, we identified
                several issues that may be suitable for OIG follow-up reviews. These issues do
                not necessarily identify organizational weakness. Rather they highlight issues
                that either impede the S&T’s ability to become fully operational or are areas that
                will further clarify the role of the IAIP as the nation’s premier protector against
                terrorist attacks.

       Procedures in the selection of the Fellowship Programs and Centers for
       Excellence Program require further review

                To attract some of the nation’s most talented scientists and engineers into its
                programs and build partnerships among laboratory and university researchers,
                S&T established two programs: the Homeland Security Centers of Excellence
                program and the Scholars and Fellows program. The budget for these programs
                increased from $3 million in FY 2003 to $70 million in FY 2004.

                Among the initial 70 responses reviewed by DHS and outside advisors to
                establish the first Homeland Security Center for Excellence (HS-Center), 12 were
                selected to submit full proposals. During November 2003, DHS announced the
                selection of the University of Southern California (USC) as its first HS-Center.
                USC is entrusted with the task of studying risk analysis related to the economic
                consequences of terrorist threats and events.

                Open to all U.S. citizens, the Fellowship program attracted 2,500 graduates,
                of which 102 were awarded scholarships. According to National Science
                Foundation standards, more than 100 experts from a variety of fields including
                physical, biological, social and behavioral sciences, engineering, mathematics,
                and computer science reviewed these applications. These scholars are pursuing
                academic programs that are consistent with the DHS mission.




                          Survey of the S&T Directorate                                       Page 19
                   We could review how S&T selects the HS-Centers, how it ensures that the Centers
                   fulfill their assignments, and how the fellowship funds are allotted and used to
                   achieve the homeland security purposes in integration with the rest of S&T’s
                   responsibilities.

          The S&T must maintain close relationships with other DHS elements,
          especially with the IAIP

                   To successfully select the best new technologies that support a cohesive and
                   integrated national plan for homeland security, it is critical for the S&T to have a
                   clear understanding of: (1) the terrorist threat picture facing the nation, and (2) the
                   current technical capabilities and ongoing research and development initiatives
                   of other DHS elements. By having a clear understanding of these essential
                   factors, the S&T will be better able to prioritize its investment decisions and avoid
                   duplicating technology initiatives by other DHS components.

                   While many S&T executives agreed with the importance of maintaining a
                   relationship with IAIP, personnel below them were not actively involved in
                   obtaining terrorist threat information from IAIP and incorporating it into S&T’s
                   selection of new technologies for homeland security. On a different level,
                   however, S&T personnel were actively pursuing working relationships with the
                   IAIP to assist with developing the next generation of threat vulnerability and
                   risk assessment tools for the IAIP. Although S&T personnel were attempting
                   to support the IAIP in this manner, the relationship between S&T and IAIP may
                   not be as close as it should be. S&T personnel attributed the relationship with
                   their IAIP counterparts as not being as close as it should to the following factors:
                   (1) IAIP management not being aware of what S&T programs have to offer, (2)
                   difficulties working with the Chief Information Officer’s delegates to the IAIP,
                   and (3) IAIP staff being heavily focused on operational concerns and daily threat
                   information.

                   Other DHS elements may be involved in research and development initiatives
                   that diverge from the DHS strategic plan for new technology investment
                   being developed by the S&T. For example, on January 21, 2004, the OIG was
                   invited to the Transportation Security Administration (TSA) for a briefing and
                   demonstration of the tools being developed by TSA to conduct threat vulnerability
                   and risk assessments. According to the briefing, substantial funding already has
                   been invested in developing such tools. The TSA demonstrated successfully
                   a tool that utilized the Internet to promote interaction between end-users such
                   as the New York City Port Authority and the TSA. However, TSA program


Page 20                                      Survey of the S&T Directorate
         managers were not actively seeking to coordinate their research and development
         investments with the IAIP, and did not know whether S&T was active in the area
         of seaport security.

         Section 302, subsections (2) and (12) of the HSA, requires the S&T to
         coordinate with other executive agencies, including those within the DHS, to
         develop an integrated national policy and strategic plan for identifying and
         procuring new technologies designed to safeguard the nation. Subsection (13)
         specifically requires coordination between S&T and other executive agencies
         to reduce duplication and identify unmet needs when selecting technologies
         to further review and develop, and subsection (3) specifically requires S&T
         to support the IAIP in assessing and testing homeland security vulnerabilities
         and possible threats. Given the emphasis on coordination between the S&T
         and other executive agencies in the HSA, a future review could identify and
         make recommendations to improve areas where this kind of coordination is not
         occurring.

S&T needs to assess the vulnerability of the foreign human capital factor in
light of security requirements imposed on foreign students and other aliens with
expertise in science and engineering.

         The National Science Foundation Act of 1950 established the National Science
         Board, which is the governing board of the National Science Foundation (NSF).
         The NSF mission is to (1) promote the progress of science, (2) advance the
         national health, prosperity, and welfare, and (3) secure the national defense. On
         August 14, 2003, the National Science Board issued a report titled The Science
         and Engineering Workforce Realizing America’s Potential. According to the
         report, it is more essential than ever to think about workforce development in
         a global context. Progress in science and engineering relies on knowledge and
         skills found throughout an international community. Also, according to the report,
         our nation needs the perspectives and talents of both the native-born and foreign-
         born for the best possible science and engineering workforce.

         Foreign students enrolled at U.S. colleges and universities are encountering visa
         problems when entering the U.S. because of a government crack down after the
         September 11, 2001, terrorist attacks on our nation. Before September 11, 2001,
         it took students entering the U.S. about two weeks to get a student visa. Recent
         news articles stated that in 2003 foreign students had to wait approximately 6
         months to receive their visas in order to enter the U.S. America needs to attract



                   Survey of the S&T Directorate                                    Page 21
                   the world’s most accomplished students, scientists, and engineers and encourage
                   them to share their capabilities with us.

                   On the other hand, over 583,000 foreign students attend U.S. colleges and
                   universities. One third or more of all U.S. science and engineering doctoral
                   degrees and 40 percent of PhD’s in computer science go to foreigners. One-third
                   or more of the research assistants in academic laboratories are foreigners. S&T
                   will need to assess whether, and how, to accommodate these facts when funding
                   academic research involving potentially highly sensitive homeland defense
                   efforts, and balance the benefit gained from obtaining foreign students’ intellectual
                   skills with the cost of securing the country.


          Prudent project management is key to S&T’s success and to ensure that the
          nation maintains trust in S&T’s efforts. This is especially true for S&T projects
          that depend on agreements with other federal entities.

                   S&T works closely with national laboratories, universities, and the private
                   sector for research and development for creating new technologies to address
                   terrorist threats. S&T owns two of these national laboratories: Plum Island
                   and Environmental Measurements Laboratory. However, S&T also relies
                   on laboratories owned and operated by other federal agencies, such as the
                   Department of Energy, and universities to fulfill S&T’s mission in regards to
                   research and development.

                   Some of the national laboratories have come under public scrutiny because of
                   problems disclosed at the laboratories. To illustrate, a local California newspaper
                   published an article on security concerns at the University of California Lawrence
                   Livermore National Laboratory. According to the article, the laboratory is not
                   fit to effectively resist a terrorist attack because of (1) ineffective and unsafe
                   security procedures, and (2) high attrition rates and inadequate training to
                   handle radioactive materials. Also, the article discussed millions of dollars in
                   unaccounted lab property.

                   According to a November 2003, newspaper article, a number of deficiencies exist
                   at the Plum Island Laboratory that is owned and operated by DHS, and need to be
                   fixed.




Page 22                                      Survey of the S&T Directorate
         Prudent business practices warrant that management oversight procedures should
         be in place to protect S&T’s interest in ensuring that laboratories deliver what is
         expected and that the government is protected. This is especially true for national
         laboratories and university facilities that S&T does not own, but depends on to
         satisfy S&T mission.

         S&T should have provisions in their agreements with non-DHS entities that
         require protective security measures, and other factors for prudent oversight
         of S&T’s projects. Also, S&T should have procedures in place to monitor the
         laboratories’ compliance with these requirements.

S&T should ensure that proper controls are in place when using Other
Transaction Authority.

         The HSA of 2002 statutorily gave OTA to the DHS for research and development
         projects. OTA gives DHS, specifically the S&T Directorate, flexibility in
         engaging non-traditional vendors, including contractors that are reluctant to
         do business with the federal government because of its unique accounting
         requirements and inability to freely negotiate intellectual property rights. OTA
         authority allows the S&T Directorate to function more like a commercial partner
         and negotiate flexible agreements that protect the DHS’s interest.

         However, according to the HSA, the OTA is only in effect for a five-year period
         following the effective date of the HSA. Furthermore, not later than two years
         after the effective date of the HSA, and annually thereafter, the Comptroller
         General shall report to the Committee on Government Reform of the House of
         Representatives and the Committee on Governmental Affairs of the Senate on:
         (1) whether the OTA attracts nontraditional government contracts and results in
         the acquisition of needed technologies, and (2) if such authorities were to be made
         permanent, whether additional safeguards are needed with respect to the use of
         such authorities.

         If DHS fails to prove that the use of OTA attracted nontraditional government
         contracts and put the proper controls in place regarding the use of OTA, then OTA
         may not be renewed at the end of the 5-year period as prescribed in the HSA.
         This could have a devastating effect on S&T’s ability to quickly implement new
         technology in the field.

         We could conduct a review to determine if S&T’s use of OTA has met the intent
         of Congress. The objective of the review could be to determine whether S&T’s


                   Survey of the S&T Directorate                                     Page 23
          use of OTA did attract non-traditional vendors and quickly implemented new
          technologies necessary to protect our nation. This review could also determine
          if sufficient management controls were in place to ensure that the benefits gained
          were commensurate with reasonable cost incurred.




Page 24                            Survey of the S&T Directorate
                                               Appendix A
                                               Summary of S&T Statutory Functions




      S&T Major Responsibilities Outlined in the HSA
No.                        Statutory Responsibility
 1     Advising the Secretary on research and development efforts
       and priorities in support of the DHS mission
2      Developing a national policy and strategic plan for
       coordinating the federal government’s civilian efforts to
       identify and develop countermeasures to terrorist threats
3      Assisting in assessing and testing homeland security
       vulnerabilities and possible threats
4      Leading DHS and national research efforts to prevent
       importation of terrorist weapons and materials and preventing
       or responding to terrorist attacks
5      Establishing a system to transfer homeland security
       developments and technologies to federal, state, local, and
       private sector partners




               Survey of the S&T Directorate                               Page 25
Appendix B
Budget and FTE Statistics for Fiscal Years 2003 and 2004




                Budget and FTE Statistics for Fiscal Years 2003 and 2004
                                                                FY 2003           FY 2004
   Programs/Salaries & Expenses/Office of the
                                                                   Budget            Budget
   Under Secretary                                         FTE
                                                                    ($000)    FTE     ($000)
   Biological Countermeasures                                57       362,600   63     198,500
   Nuclear & Radiological Countermeasures                       4             75,000    22   127,000
   Threat & Vulnerability, Testing and Assessment
                                                                7             36,100    18    93,500
   (TVTA)
   National Biodefense Center                                 …                  …            88,000
   Rapid Prototyping/Technical Support Working
                                                                4             33,000     5    75,000
   Group (TSWG)
   University & Fellowships Programs                                           3,000     2    70,000
                                                               1
   Critical Infrastructure Protection                         …                  …             6,500
   Chemical Countermeasures                                     2              7,000    10    52,000
   Standards/State & Local Program                              3             20,000     4    39,000
   Conventional Missions                                      …                  …      10    34,000
   Emerging Threats                                             1             16,750     4    21,000
   High Explosives Countermeasures                            …                  …       2     9,500
   S&T Salaries & Expenses                                    …                  …      …     39,000
   Office of the Under Secretary                              …                  …      …      5,168
   Total                                                      79          553,450      140   918,168




Page 26                                       Survey of the S&T Directorate
                                                                                    Appendix C
                                                                                    RDT&E Program Nomenclature




                                           RDT&E Program Nomenclature6
                   No.             Title                          Description
                                             Supports research that produces new knowledge in
                   6.1      Basic Research   a scientific or technological area of interest to the
                                             military.
                                             Supports the exploratory development and initial
                                             maturation of new technologies for specific
                   6.2     Applied Research
                                             military application (or further developing existing
                                             technology for new military applications).
                               Advanced      Supports larger scale hardware development and
                   6.3        Technology     integration and experiments that can demonstrate
                             Development     capability in more operationally realistic settings.
                                             Supports the initial development and
                           Demonstration and demonstration of a product designed specifically to
                   6.4
                               Validation    meet an agreed upon set of performance standards
                                             associated with a validated operational need.
                                             Supports the continued development and
                                             refinement of a specifically designed product
                            Engineering and
                                             that has demonstrated it can meet performance
                   6.5       Manufacturing
                                             requirements and development of the necessary
                             Development
                                             manufacturing processes needed to build that
                                             product.
                                             Supports the overhead costs associated with
                             Management
                   6.6                       managing the RDT&E activities and running
                                Support
                                             facilities.
                              Operational    Supports the continued improvement and
                   6.7          Support      upgrading of products already in production.
                             Development




6
    Source: CRS Report for Congress, Defense Research: A Primer on the Department of Defense’s Research, Development, Test and
Evaluation (RDT&E) Program, updated July 14, 1999.




                                           Survey of the S&T Directorate                                                    Page 27
Appendix D
S&T Portfolios




                                          S&T Portfolios
   Port No.                    Name                                          Description
 Port-01         Biological Countermeasures             This portfolio provides the science and
                                                        technology required to decrease the likelihood
                                                        and potential impact of a biological attack on our
                                                        civilian population, infrastructure, or agricultural
                                                        system.
 Port-02         Border & Transportation Security        This portfolio ensures that research,
                                                        development, test and evaluation (RDT&E)
                                                        activities in relation to the homeland security
                                                        are consistent with the goals and objectives of
                                                        the BTS, the S&T Directorate, and the National
                                                        Security Strategy.
 Port-03         Chemical Countermeasures               This portfolio provides the science and
                                                        technology required to diminish the country’s
                                                        vulnerability to chemical attacks on our civilian
                                                        population and infrastructure.
 Port-04         Threats & Vulnerability, Testing &     This portfolio enhances the intelligence and
                 Assessments (TV/TA)                    vulnerability analysis of the DHS.
 Port-04a        TV/TA -- Physical Security             This program is expected to significantly
                                                        improve the capabilities of our nation to
                                                        physically protect its critical infrastructure and
                                                        key assets.
 Port-04b        TV/TA -- Critical Infrastructure       The program has three essential goals: a)
                 Protection – Modeling, Simulation,     develop, implement, and evolve a rational
                 and Analysis Program (CIP-MSAP)        approach for prioritizing CIP strategies and
                                                        resource allocations using modeling, simulation,
                                                        and analyses to assess vulnerabilities,
                                                        consequences, and risks; b) propose and evaluate
                                                        protection, mitigation, response, and recovery
                                                        strategies and options; and c) provide real-time
                                                        support to decision makers during crises and
                                                        emergencies.




Page 28                                       Survey of the S&T Directorate
                                                                                     Appendix D
                                                                                     S&T Portfolios




                                       S&T Portfolios
  Port No.                 Name                                          Description
Port-06      Cyber Security                           The portfolio engages in research, development,
                                                      testing, and evaluation activities along several
                                                      different dimensions.
Port-07      ERP
Port-07a     ERP – Technology Development             The program identifies venues where significant
             for Emergency Preparedness and           improvements in capability can be facilitated
             Response                                 by modern technologies, technology integration
                                                      and/or advances in basic research.
Port-07b     ERP – State and Local Program            The State and Local Program provides the
                                                      capability to obtain user requirements from
                                                      State and Local Emergency Responders to
                                                      advance the development, implementation,
                                                      and reassessment of standards for Homeland
                                                      Security Technologies that support their
                                                      missions.
Port-07c     ERP – Safe Cities Program                This program supports the nation-wide regional
                                                      security initiative under the aegis of DHS.
                                                      Working directly with state and local emergency
                                                      responders and law enforcement agencies,
                                                      this program aims to obtain the best available
                                                      science and technology to prevent, detect,
                                                      and respond to “all-hazard” emergencies into
                                                      existing command, control and communication
                                                      infrastructures.
Port-08      Explosives                               During fiscal year 2004, the portfolio will
                                                      primarily address terrorist attacks against
                                                      buildings and the general public.
Port-09      International Program                    This portfolio supports the Under Secretary in
                                                      encouraging and facilitating involvement of the
                                                      world community on homeland security issues.




                          Survey of the S&T Directorate                                       Page 29
Appendix D
S&T Portfolios




                                            S&T Portfolios
   Port No.                    Name                                        Description
 Port-11         Radiological and Nuclear               This portfolio has a comprehensive strategy
                 Countermeasures                        to deter a radiological and nuclear attack. It
                                                        also provides the best available technologies,
                                                        training, and information to aid in crisis
                                                        response, incident management and recovery,
                                                        and attrition.
 Port-11a        Preplanned Product                     The two goals of this program are:
                 Improvements                           a) to quickly develop and transition
                 (P3I)                                  enhanced capability to deployed detectors/
                                                        systems and b) to quickly include recent
                                                        improvements in prototype technologies
                                                        into the near commercial offerings of
                                                        radiological and nuclear detectors/systems
                                                        used in DHS operational environments.
 Port-11b        Detection Technology                   The program conducts the underlying
                 Initiatives                            research and development to develop
                                                        modern or enhanced technologies for
                                                        the detection of nuclear and radiological
                                                        materials.
 Port-11c        Incident Management and                The primary goals of this program are
                 Recovery                               to save human lives, and to minimize
                                                        environmental and economic impacts.
 Port-11d        Systems Architecture and Pilot         This program focuses on the development
                 Deployments                            of radiological and nuclear countermeasure
                                                        systems that improve the nation’s capability
                                                        to address the threat of terrorist use of a
                                                        radiological dispersal device (RDD) or
                                                        improvised nuclear device (IND) in the U.S.




Page 30                                       Survey of the S&T Directorate
                                                                                         Appendix D
                                                                                         S&T Portfolios




                                         S&T Portfolios
  Port No.                 Name                                            Description
Port-13      Standards Program
Port-13a     Biological Countermeasures                 This program for biological
                                                        countermeasures develops comprehensive
                                                        standards for development, testing, and
                                                        certification of effective detection, response,
                                                        remediation, and forensics tools for specific
                                                        bioagents.
Port-13b     BTS Biometrics                             The program for biometrics develops
                                                        comprehensive standards for the
                                                        development, testing, and certification of
                                                        effective technologies for identification,
                                                        authentication and security of biometric
                                                        data.
Port-13c     Certification/Attestation/                 This program provides the ability for the
             SAFETY Act Implementation                  DHS to perform the conformity assessments
                                                        for specific homeland security technology
                                                        tools.
Port-13d     Chemical Countermeasures                   This program provides the science and
                                                        technology required for reducing our
                                                        country’s vulnerability to chemical
                                                        attacks on our civilian population and
                                                        infrastructure.
Port-13e     Interoperability of                        The program develops comprehensive
             Communication                              standards for the development, testing, and
              and Information                           certification of enabling technologies for
                                                        interoperable and compatible detection and
                                                        information exchange tools.
Port-13f     Conventional Missions                      The program offers the capability to provide
             Standards Program                          standards, best practices and guidelines to
                                                        assist conventional missions within DHS to
                                                        operate effectively and consistently.




                            Survey of the S&T Directorate                                          Page 31
Appendix D
S&T Portfolios




                                           S&T Portfolios
   Port No.                     Name                                           Description
 Port-13h        IAIP Critical Infrastructure             This program provides the capability for
                  Protection                              the provision of security standards, best
                                                          practices and guidelines to protect the
                                                          nation’s critical infrastructure.
 Port-13i        IAIP Cyber Security                      The program develops comprehensive
                                                          standards for the development, testing, and
                                                          certification of effective technologies for
                                                          the authentication of persons attempting to
                                                          access information systems and the security
                                                          of data critical to the needs of homeland
                                                          security.
 Port-13j        Modeling, Simulation and                 The program develops comprehensive
                 Analysis                                 standards for the validation and verification
                                                          of modeling, simulation and analysis tools.
 Port-13k        Radiation/Nuclear                        The program develops comprehensive
                 Countermeasures                          standards for the development, testing,
                                                          and certification of effective detection,
                                                          response, remediation, and forensics tools
                                                          for radiological and nuclear materials.
 Port-13l        Training                                 This training program develops
                                                          comprehensive standards for the
                                                          development, testing, and certification of
                                                          effective responders at all levels. It has the
                                                          ability to provide guidance to local/state/
                                                          federal homeland security entities regarding
                                                          the appropriate testing and certification for
                                                          all levels of emergency responders.




Page 32                                         Survey of the S&T Directorate
                                                                                        Appendix D
                                                                                        S&T Portfolios




                                         S&T Portfolios
  Port No.                 Name                                           Description
Port-15      Threat and Vulnerability
             Testing & Assessments
Port-15a     Advanced Scientific                        This program supports advanced scientific
             Computing Research and                     computing research and development
             Development                                in four technical areas-Simulation
                                                        Technologies, Discrete and Stochastic
                                                        Alogarithms, Large-Scale Data Integration
                                                        and Information Extraction, and Computer
                                                        Science and Mathematics Foundations-
                                                        and will demonstrate the value of these
                                                        capabilities to DHS operational assets via
                                                        pilot projects.
Port-15b     Behavioral Research Program                The three goals of this program are: a) to
                                                        understand terrorism behavior to the level
                                                        that enables disruption of both organized
                                                        and individual terrorist activities, b) to
                                                        create a reliable method for accurately
                                                        interpreting indications of threat, both
                                                        directly communicated and intercepted,
                                                        and c) to understand the impact and public
                                                        acceptance of DHS activities to obtain their
                                                        cooperation.
Port-15c     Biometrics Program                         The program’s goal is determination of
                                                        rapid biometrics feasibility which will be
                                                        conducted on both individual biometrics
                                                        and fusion approaches.
Port-15d     Integrated Feasibility                     The objective of this program is to develop
             Experiment (IFE)                           and demonstrate the ability to track
                                                        terrorists coming across our borders using a
                                                        quick-start project followed by aggressive
                                                        research and experimentation effort that is
                                                        grounded and shaped by the use of real data.




                            Survey of the S&T Directorate                                       Page 33
Appendix D
S&T Portfolios




                                          S&T Portfolios
   Port No.                     Name                                            Description
 Port-15f        Threat—Vulnerability                     The program enables analysts to rapidly
                 Integration System Prototype             search, integrate, and gain insight from
                                                          information that lies buried in terabytes and
                                                          petabytes of digital information that are
                                                          overwhelming by today’s standards.
 Port-15g        Threat – Vulnerability                   This program is responsible for advancing
                 Mapping and                              the Threat-Vulnerability, intelligence
                 Warning Systems R&D                      and information analysis, and warning
                                                          capabilities of the Homeland Security.
 Port-15h        Information Analysis -- WMD              The program establishes an end to end
                 Assessments Programs                     national capability, built on the technical
                                                          expertise of the Homeland Security
                                                          community of resources, to assess the
                                                          validity of communicated threats for all
                                                          weapons of mass destruction (WMD), to
                                                          create a comprehensive strategic and current
                                                          awareness of WMD material flows and
                                                          illicit trafficking through distributed sensor
                                                          and information systems integration, to
                                                          characterize the capabilities of adversaries
                                                          through integrated analytic and technical
                                                          teams, and rapidly characterize composition
                                                          and sources of WMD materials.
 Port-16         Secret Service                           This portfolio has twin missions- protection
                                                          and investigations. In addition to protecting
                                                          our nation’s leaders and visiting world
                                                          leaders, and also has sole jurisdiction for
                                                          investigating counterfeit U.S. currency.




Page 34                                         Survey of the S&T Directorate
                                         Appendix E
                                         Major Contributors to this Report



Carlton I. Mann, Chief Inspector, Department of Homeland Security, Office of
Inspections, Evaluations, and Special Reviews

Frank A. Parrott (Team Leader), Senior Inspector, Department of Homeland
Security, Office of Inspections, Evaluations, and Special Reviews

M. Faizul Islam, Ph.D., Senior Inspector, Department of Homeland Security,
Office of Inspections, Evaluations, and Special Reviews

Bradley J. Harp, MBA, Inspector, Department of Homeland Security, Office of
Inspections, Evaluations, and Special Reviews




         Survey of the S&T Directorate                                  Page 35
Appendix F
Report Distribution



                      Department of Homeland Security

                      Under Secretary, Science and Technology Directorate, Department of Homeland
                      Security




Page 36                                      Survey of the S&T Directorate
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland, Washington, DC 20528,
Attn: Office of Inspector General, Investigations Division – Hotline. The OIG seeks to
protect the identity of each writer and caller.
